DOE/IG-0530




    INSPECTION                       INSPECTION OF THE
      REPORT                      MANAGEMENT OF PERSONAL
                                      PROPERTY AT THE
                                 ASHTABULA ENVIRONMENTAL
                                   MANAGEMENT PROJECT




                                      NOVEMBER 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
       OFFICE OF INSPECTIONS
                                      November 9, 2001


MEMORANDUM FOR THE SECRETARY

FROM:         Gregory H. Friedman /s/
              Inspector General

SUBJECT:      INFORMATION: Report on “Inspection of the Management of Personal
              Property at the Ashtabula Environmental Management Project”

BACKGROUND

The Office of Inspector General (OIG), U.S. Department of Energy, conducted an inspection to
review the management of accountable Government-owned personal property at the
Department’s Ashtabula Environmental Management Project (Ashtabula) in Ashtabula, Ohio.
Earthline Technologies (Earthline), formerly RMI Environmental Services, is the Department’s
environmental restoration contractor at Ashtabula. Earthline is a division of RMI Titanium
Company headquartered in Niles, Ohio.

The objective of this inspection was to determine if Ashtabula was properly managing
Government-owned personal property in accordance with Departmental and other Federal
property management requirements.

RESULTS OF INSPECTION

The OIG concluded that the Ashtabula site was not managing Government-owned personal
property in accordance with Departmental and other Federal property management requirements.
Specifically, Department officials allowed Earthline to stockpile Government-owned personal
property without a valid Departmental need or mission requirement. Earthline’s marketing
brochure and its Department funded website advertised some of the Government-owned personal
property for the commercial disposal of potentially contaminated waste, work which was outside
the scope of the Department’s cleanup contract. This was despite an April 2000 audit by the
Department’s Ohio Field Office which concluded Earthline was improperly using Government
property for commercial use, and a June 2000 Contracting Officer letter directing Earthline not
to engage in unauthorized use of Government property. Consequently, Government-owned
personal property was not being managed in the best interests of the Department.

The attached report specifically discusses seven pieces of Government-owned personal property
that were chosen to illustrate property management practices at Ashtabula. These pieces of
equipment originally had an acquisition cost, when purchased by the Government, of over $2.6
million. Once the equipment was transferred to Earthline, DOE spent over $1.8 million for
equipment upgrades. Additionally, DOE spent over $250,000 on the transportation of this
equipment to, and its storage at, Ashtabula. Much of this equipment sat idle once it was
obtained and retrofitted by Earthline. We urge the Manager, Ohio Field Office to: 1) evaluate
the cost allocation system used by Earthline to capture the costs for equipment upgrades,
transportation, and storage; 2) take corrective action regarding any deficiencies identified in the
cost allocation system; and 3) recover any unallowable costs.

We also recommended that the Manager, Ohio Field Office: 1) conduct an evaluation to
determine what personal property is required for mission accomplishment at Ashtabula and have
those items not required processed through the Department’s excess property system; and
2) direct the Department’s Ashtabula Project Director to review all requests for personal property
and ensure that the contractor has a valid requirement before approval. Additionally, the Project
Director should require Earthline to perform life cycle cost analysis when costs are significant.

MANAGEMENT REACTION

The Manager, Ohio Field Office, concurred with the report’s recommendations. The OIG
considers management comments responsive to the recommendations.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Director, Office of Management, Budget and Evaluation
    Manager, Ohio Field Office
INSPECTION OF THE MANAGEMENT OF PERSONAL
PROPERTY AT THE ASHTABULA ENVIRONMENTAL
MANAGEMENT PROJECT

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective………………………………… 1

              Observations and Conclusion..…………………………… 1


              DETAILS OF FINDING

              Improper Management of U.S. Government
              Property…………………………………………………….                    3

                Waste Water Treatment Plant………………………..         3

                Portable Ash Block Processing Plant………………..    4

                Soil Washing Pilot Plant………………………………           5

                Molten Salt Oxidation Unit……………………………          6

                Electro-thermal Processing System…………………       7

                Four Sperry Filter Presses……………………………          8

                Micro-encapsulation System…………………………           9

              Causes of Property Management Deficiencies …….   10


              RECOMMENDATIONS…………………………….……..                  11

              MANAGEMENT COMMENTS………………………..….                 11

              INSPECTOR COMMENTS……………………………….                  12

              Appendix

              Scope and Methodology……………………….…………              13
Overview
INTRODUCTION     The purpose of this inspection was to review the management of
AND OBJECTIVE    accountable Government-owned personal property at the
                 Department’s Ashtabula Environmental Management Project
                 (Ashtabula) in Ashtabula, Ohio. Earthline Technologies
                 (Earthline), formerly RMI Environmental Services, is the
                 Department’s environmental restoration contractor at Ashtabula.

                 Earthline is a division of RMI Titanium Company (RMI)
                 headquartered in Niles, Ohio. This inspection dealt with functions
                 assigned by RMI to Earthline, and for the purposes of this report
                 Earthline and RMI are to be considered interchangeable. Earthline
                 owns the Ashtabula site, where it processed uranium under
                 contract with the Department and its predecessor agencies
                 beginning in 1962. When the Ashtabula cleanup began in 1993,
                 the Department negotiated site remediation with RMI as part of
                 close-out under the preceding contract. The cleanup process
                 eventually chosen involved washing the soil at the site in a manner
                 then believed to be more economical than off site shipment and
                 disposal. Earthline and the Department each own about half of the
                 buildings on the Ashtabula site and the Department owns about 99
                 percent of the site equipment. Cleanup operations at the Ashtabula
                 site are currently regulated under a radiological license granted by
                 the Ohio Department of Health, Bureau of Radiation Protection.

                 The objective of this inspection was to determine if Ashtabula was
                 properly managing Government-owned personal property in
                 accordance with Departmental and other Federal property
                 management requirements. During this inspection, the Office of
                 Inspector General (OIG) identified related issues requiring
                 immediate management attention. These issues were addressed in
                 our June 2001 Letter Report on “Environment, Safety and Health
                 Issues at the Ashtabula Environmental Management Project.”

OBSERVATIONS     The inspection found that the Ashtabula site was not managing
AND CONCLUSION   Government-owned personal property in accordance with
                 Departmental and other Federal property management
                 requirements. Specifically, Department officials allowed Earthline
                 to stockpile Government-owned personal property without a valid
                 Departmental need or mission requirement. Earthline’s marketing
                 brochure and its Department funded website advertised some of
                 the Government-owned personal property for the commercial
                 disposal of potentially contaminated waste, work which was
                 outside the scope of the Department’s cleanup contract. This was
                 despite an April 2000 audit by the Department’s Ohio Field Office
                 which concluded Earthline was improperly using Government
Page 1                                 Inspection of the Management of
                                       Personal Property at the Ashtabula
                                       Environmental Management Project
         property for commercial use, and a June 2000 Contracting Officer
         letter directing that Earthline not engage in further unauthorized
         use of Government property. Consequently, Government-owned
         personal property was not being managed in the best interests of
         the Department.

         This report specifically discusses seven pieces of Government-
         owned personal property that were chosen to illustrate property
         management practices at Ashtabula. These pieces of equipment
         originally had an acquisition cost, when purchased by the
         Government, of over $2.6 million. Once the equipment was
         transferred to the Ashtabula contractor, the Government spent over
         $1.8 million for equipment upgrades. Additionally, the
         Government spent over $250,000 on the transportation of this
         equipment to, and its storage at, Ashtabula.

         In addition to this inspection, the OIG Office of Audit Services is
         examining whether environmental remediation activities at
         Ashtabula are on schedule for completion by 2003.




Page 2                          Inspection of the Management of
                                Personal Property at the Ashtabula
                                Environmental Management Project
Details of Finding
IMPROPER             Contrary to property management requirements and the best
MANAGEMENT           interests of the Department, Earthline obtained numerous items
OF U.S. GOVERNMENT   of personal property, using Federal funds, without a valid
PROPERTY             Departmental need or mission requirement. Once received, many
                     items were placed in storage for long periods at Department
                     expense. Other items underwent costly modifications at
                     Department expense before being stored. Some items were used
                     for commercial work that was outside the scope of the
                     Department’s cleanup contract. For example, although a May
                     2000 audit report by the Department’s Ohio Field Office cited
                     Contracting Officer Letter OH-1198-98, denying use of
                     Government-owned equipment for commercial work, the audit
                     noted extensive use of Government-owned equipment by Earthline
                     for commercial work without reimbursement to the Department.
                     Based on the audit findings, the Contracting Officer instructed
                     Earthline to develop a comprehensive plan to preclude further
                     unauthorized use of government property. Nevertheless, the
                     inspection found Earthline was advertising Government equipment
                     for commercial disposal of potentially contaminated waste, and
                     was also using government laboratory equipment to analyze
                     samples for radioactivity under commercial contracts. This issue
                     has been referred for further review within the OIG.

                     Earthline manages approximately $13 million of accountable
                     Government-owned personal property. The following sections
                     highlight selected examples where personal property was not
                     managed according to the best interests of the Department.

Waste Water          In October 1998, Earthline obtained an excess Department waste
Treatment Plant      water treatment plant (treatment plant) from Grand Junction,
                     Colorado. This treatment plant was originally justified as a
                     replacement for an aging onsite treatment plant and also for use in
                     site cleanup. However, after receipt, the treatment plant was never
                     placed in service because its projected uses were overcome by
                     events. Additionally, another method of treatment had already
                     been approved as a temporary solution before the treatment plant
                     was received.

                     According to documentation provided by Earthline, the treatment
                     plant had an acquisition cost of over $850,000. The treatment
                     plant was shipped at a cost of over $27,300. An additional $4,600
                     was paid for unloading and placing it in storage in the RMI Metals
                     Facility. Since its delivery, Earthline has charged the Department
                     a rental fee of over $1,000 per month for storage of the non-
                     operational unit. The OIG noted that Earthline did not possess a
                     radiological license to store the contaminated treatment plant in the


Page 3                                                              Details of Finding
                   RMI Metals Facility. Based on the initial OIG observation and
                   notification to management, Earthline contacted the Ohio Bureau
                   of Radiation Protection to disclose their possession of the
                   treatment plant. During August 2001, Earthline received a Notice
                   of Violation and fine from the Ohio Bureau of Radiation Protection
                   for storage of the treatment plant at the RMI Metals Facility.




                   CONTAMINATED W ASTE W ATER TREATMENT PLANT AT RMI M ETALS FACILITY



Portable Ash       In December 1998, Earthline officials initiated procurement of a
Block Processing   portable ash-block processing plant (brick maker) system from
Plant              a company in New Mexico. The purpose of the system was to
                   stabilize hazardous soil by compression forming contaminated
                   soil-like material and fly ash into compacted bricks. Earthline
                   bought the used system for $30,000 and received the system in
                   January 1999. Prior to the system being sold to Earthline, it was
                   slated to be sold at auction. The OIG found that Earthline had
                   charged the Department over $690,000 to upgrade the system but
                   never used it in site cleanup operations.

                   The transportation cost of shipping the brick maker system was
                   $1,550, and the Department has paid rental fees to Earthline of
                   $2,175 a month to store the system since January 1999. During
                   our inspection, we noted that Earthline was advertising portable
                   mixed waste treatment equipment, including a compression
                   forming brick maker, for use on commercial contracts. According
                   to an Earthline official, the only brick maker Earthline possesses
                   belongs to the Government. Therefore, it appeared Earthline was
                   advertising Government property for commercial services without
                   authorization.



Page 4                                                          Details of Finding
               THE PORTABLE ASH BLOCK P ROCESSING PLANT



Soil Washing   In September 1996, Earthline officials requested transfer of a soil
Pilot Plant    washing pilot plant (pilot plant) from the Department’s Fernald
               Environmental Management Project (Fernald) for use in a soil
               washing pilot study. In the study, the pilot plant was portrayed as
               a significant cost saving device to support Ashtabula soil washing.
               The pilot plant was received from Fernald in two phases. Phase I
               of the plant was received in November 1996 and phase II was
               received in March and April 1997. The pilot plant was considered
               “High Risk” property under Department regulations because it was
               contaminated with radioactivity.

               The pilot plant originally had an acquisition cost of $446,151.
               Parts were shipped under phase I at a transportation cost of
               $13,148, and parts were shipped under phase II at a transportation
               cost of $10,100. Once the entire plant was received it was placed
               in storage. Some parts from phase I were used to upgrade another
               similar system, but other parts from phase I and none of the parts
               from phase II were ever used. Finally, Earthline’s records depicted
               that over $450,000 was spent, between Fiscal Years 1997 and
               1999, in modification costs, including parts and labor, while the
               pilot plant was stored.




Page 5                                                       Details of Finding
                 STORED P ILOT PLANT EQUIPMENT



Molten Salt      In June 1997, Earthline officials initiated procurement of a Molten
Oxidation Unit   Salt Oxidation (MSO) unit from a research and laboratory
                 company in Research Triangle, North Carolina. The North
                 Carolina company had obtained the MSO unit from a South
                 Carolina university. The MSO unit originated at the Department’s
                 Oak Ridge Reservation in Tennessee. The MSO unit was initially
                 obtained by Earthline to pursue a commercial initiative not related
                 to the cleanup contract at Ashtabula.

                 In September 1997, the MSO unit was delivered to Earthline, with
                 shipping papers which identified the equipment as “Scrap.” The
                 OIG was told that the MSO unit was received without any
                 reference in shipping documents to radioactive material. After
                 Earthline personnel unloaded the MSO unit they determined it was
                 contaminated with radioactive cesium. According to an Earthline
                 manager, the unit was stored in the RMI Metals Facility in
                 anticipation of decontamination and refurbishment by Earthline.

                 Although procured for commercial work, the cost associated with
                 upgrading and refurbishing the unit, estimated at over $475,000,
                 was charged to the Department. An Earthline manager believed
                 that the MSO unit was moved from the RMI Metals Facility, which
                 is not licensed for radioactive materials, to the Extrusion Plant, in
                 October 1999. Moreover, responsible Earthline officials informed
                 the OIG that the rental cost charged to the Department was about
                 $200 per month while the unit sat idle from September 1997 to


Page 6                                                         Details of Finding
                    October 1999. According to a Department of Energy Ohio Field
                    Office official, the MSO unit was then recontaminated by Earthline
                    during testing at the Extrusion Plant. During the inspection, we
                    noted that Earthline was advertising mixed waste treatment
                    equipment, including molten salt oxidation equipment, for use on
                    commercial contracts.

                    Based on the initial OIG observation and notification to
                    management concerning contaminated property at the unlicensed
                    RMI Metals Facility, Earthline contacted the Ohio Bureau of
                    Radiation Protection. During August 2001 Earthline received a
                    Notice of Violation and fine from the Ohio Bureau of Radiation
                    Protection for unlicensed storage of radioactive waste from the
                    MSO unit at the RMI Metals Facility.




                    MOLTEN SALT OXIDATION U NIT



Electro-Thermal     In October 1998, Earthline officials requested transfer of an
Processing System   Electro-Thermal Processing System, also known as a plasma arc
                    furnace, from the Department’s Western Environmental
                    Technology Office in Butte, Montana.

                    According to Earthline documents, the plasma arc furnace had an
                    acquisition cost of $853,000. The cost of transporting the plasma
                    arc furnace from Montana to Ashtabula was approximately
                    $25,000. Moreover, the Department has been paying a rental fee
                    to Earthline of $1,000 a month to store the furnace system since


Page 7                                                           Details of Finding
                 receipt. The justification for the request was treatment of mixed
                 waste at the Ashtabula site. The value of obtaining the plasma arc
                 furnace was represented as a significant cost savings. However,
                 once the system was received, it was placed in storage in the RMI
                 Metals Facility and never installed. Moreover, Department
                 Headquarters never approved the decision to use the plasma arc
                 furnace at Ashtabula. Furthermore, a “Baseline Change Proposal”
                 document did not reflect that the Department approved a change to
                 the contract for the system. A Baseline Change Proposal did state
                 that “A plasma arc furnace is one possibility for treatment, but may
                 not be acceptable due to perceptions of it being an incinerator and
                 the associated permitting issues.”

                 As a result of our inspection, Earthline management reported the
                 plasma arc furnace through the Department’s excess property
                 process known as “EADS.” Another Department site has since
                 shown an interest in obtaining the system.

Four Sperry      In August 1997, Earthline officials requested transfer of four
Filter Presses   Sperry Filter Presses from the Department’s Fernald
                 Environmental Management Project to the Ashtabula site. The
                 filter presses were initially requested as laboratory equipment in
                 support of a soil washing study. The request stated, “Acquisition
                 of these items will represent a significant cost savings for the study
                 and may provide savings for the RMI Decommissioning Project.”
                 The acquisition cost of the filter presses was originally $277,876.

                 According to an Earthline official, the filter presses were received
                 in December 1997 and delivered to RMI Metals Facility for
                 storage. The transportation cost for moving the presses to the
                 Ashtabula site was $950. The filter presses were never placed in
                 operation, and the Department has continued to store this
                 equipment. According to an Earthline official, it was decided in
                 late 1998 that there was no need for the filter presses at the site, but
                 they were not reported through the Department’s excess property
                 process (EADS) until June 2001.




Page 8                                                            Details of Finding
                      EXAMPLE OF F ILTER P RESS



Micro-Encapsulation   In March 1998, Earthline officials requested, through the
System                Department’s Ashtabula Project Manager, an excess Micro-
                      encapsulation system from the Department’s Rocky Flats Site. In
                      a summary letter, prepared by an Earthline engineering manager,
                      the Micro-encapsulation system was said to be a “vital cog in the
                      overall integrated mixed waste treatment approach [at Ashtabula].”
                      Also, the summary stated, “The integrated approach will save over
                      $2.5 M [million] in mixed waste treatment cost and will allow for
                      schedule acceleration.” Finally, “Timely relocation of this unit
                      [Micro-encapsulation system] is critical to meeting the RMIDP
                      Federal milestones for treatment and shipment by October 1999
                      and December 1999, respectively.”

                      The subcontract for testing and shipping the system from Rocky
                      Flats required the work to be performed between September 11 and
                      30, 1998. Contrary to its justification for urgent need, the system
                      was not shipped until after July 1999. According to an Earthline
                      project manager, the Micro-encapsulation system underwent a test
                      run between September and December 2000. The operating permit
                      for the system from the Ohio Health Department was received in
                      October 2000. The project manager stated that the system was
                      turned over to site operations personnel for routine use on
                      January 4, 2001.

                      The OIG noted some questionable costs related to the Mico-
                      encapsulation system. In September 1998, a sole source purchase
                      order was initiated by Earthline to hire Advanced Integrated


Page 9                                                             Details of Finding
               Management Services, Incorporated (AIMS), to obtain and service
               the Rocky Flats’ system to support waste treatment. Initially, the
               purchase order was estimated at $50,000. However, the actual
               purchase order was $99,999. After discussions with Earthline
               officials, the OIG concluded that the $99,999 price was established
               because the Department’s Contracting Officer must approve sole
               source purchase orders over $100,000. Including the amount paid
               to AIMS, the Department ended up paying over $233,000 to
               retrieve, partially test, and transfer the system to Ashtabula.

               Lastly, during the inspection we noted that Earthline was
               advertising mixed waste treatment equipment for use on
               commercial contracts. The advertisements included micro-
               encapsulation equipment.

CAUSES OF      In 1995, in response to Congressional inquires, senior Department
PROPERTY       officials agreed to encourage future development for the Ashtabula
MANAGEMENT     site. This agreement did not specifically address or authorize the
DEFICIENCIES   use of Government-owned personal property. However, due to
               these initiatives, Ohio Field Office officials supported Earthline’s
               approach to waste disposal for the Ashtabula Site. Therefore, Ohio
               Field Office officials signed the purchase orders or transfer
               documentation for Government personal property; but failed to
               ensure that the property was actually needed and efficiently
               managed following receipt.




Page 10                                                      Details of Finding
RECOMMENDATIONS   We recommend that the Manager, Ohio Field Office:

                  1. Conduct an evaluation to determine what personal property is
                     required for mission accomplishment at Ashtabula and have
                     those items not required processed through the Department’s
                     excess property system.

                  2. Direct the Department’s Ashtabula Project Director to review
                     all requests for personal property and ensure that the contractor
                     has a valid requirement before approval. The Director should
                     require the contractor to perform life cycle cost analysis when
                     costs are significant.

MANAGEMENT        The Manager, Ohio Field Office, concurred with the
COMMENTS          recommendations and provided the following comments:

                  “The problems identified by the OIG arose out of the strategy to
                  utilize excess equipment whenever possible to avoid the expense
                  of purchasing new equipment and reuse equipment to reduce
                  generation of additional wastes, both nuclear and hazardous.
                  Decisions on obtaining equipment were made under time
                  constraints and with a clear understanding that new strategies or
                  changes in regulatory requirements could make previous decisions
                  obsolete.

                  Equipment for the treatment of mixed waste was often obtained to
                  facilitate possible treatment methodologies that were not fully
                  developed. The final disposition of mixed waste streams was
                  complicated by the lack of viable off site treatment options during
                  the mid to late 1990s. Additionally, time constraints imposed by
                  Regulatory Milestones in the Site Treatment Plan made the
                  disposal of mixed waste a high priority. Utilizing excess
                  equipment allowed the Project to develop viable treatment options.

                  The root cause of the issues identified was the lack of managing
                  the disposition of government equipment more so than its
                  acquisition. In most of the examples provided in the report, excess
                  costs were associated with holding equipment that no longer had a
                  viable use. This problem was, in all probability, further
                  exacerbated by the site contractor’s motivations as identified in the
                  IG report.”

                  Additionally, the Manager stated that “The Department is still
                  considering use of the ‘Brick-Maker’ for treatment of lead soils.
                  The Department deferred the planned processing of these soils in
                  FY01 in order to redirect funding into building remediation. The

Page 11                                                   Recommendations/
                                                          Management Comments
            OHIO EPA is now strongly encouraging the remediation of the
            lead soils in FY02. It should also be noted that the ‘Brick-Maker’
            was not purchased under a Government purchase order. Earthline
            procured this item without the Department’s approval.”

INSPECTOR   Management comments were responsive to the recommendations.
COMMENTS    General comments provided by management have been
            incorporated into the report where appropriate.




Page 12                                                Inspector Comments
Appendix A
SCOPE AND     This inspection was performed at the Ohio Field Office and the
METHODOLOGY   Ashtabula Environmental Management Project from May through
              July 2001.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency. As part of our inspection we interviewed
              officials at the Department’s Ohio Field Office and the Ashtabula
              Environmental Management Project. We also reviewed pertinent
              records and documents pertaining to the Earthline’s Property
              Management System. Further, we reviewed related reports by the
              Office of Inspector General.




Page 13                                             Scope and Methodology
                                                                    IG Report No.: DOE/IG-0530

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer
    Friendly and cost effective as possible. Therefore, this report will be available
        Electronically through the Internet at the following alternative address:

          U.S. Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
